No. 19-968

 

IN THE
Supreme Court of the United States

CHIKE UZUEGBUNAM, et al.,

Petitioners,
v.

STANLEY C, PRECZEWSKI, e¢ al.,
Respondents.

On. Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

BRIEF OF THE DISTRICT OF COLUMBIA AND
THE STATES OF FLORIDA, HAWAII, ILLINOIS,
INDIANA, MINNESOTA, NEW JERSEY,
NEW MEXICO, NORTH CAROLINA, TENNESSEE,
UTAH, AND VIRGINIA AS AMICI CURIAE
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,689 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 25, 2020.

 

Wilson-Epes Printing Co., Inc.
